                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                               Review of
                               President’s Emergency Plan for Aids Relief
                                     in Small Investment Countries

                                             Report Number ISP-I-11-59, August 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




                                Table of Contents
Key Judgments                                               1
Context                                                     2
Management and Leadership                                   4
Regional Operational Programs                               5
   Central Asia Region                                      5
   Central America Region                                   7
   Caribbean Region                                         7
Directly Funded Programs                                    9
Training                                                   11
Impact of the President’s Emergency Plan for AIDS Relief   12
   Central America and Caribbean Region                    12
   Central Asia Region                                     12
   Directly Funded Programs                                13
Formal Recommendation                                      14
Informal Recommendation                                    15
Abbreviations                                              16
APPENDIX A                                                 17
APPENDIX B                                                 20
APPENDIX C                                                 22
APPENDIX D                                                 24




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Key Judgments
•   Individual embassies and most of the embassies in regional programs that receive small
    investments of less than $5 million from the President’s Emergency Plan for AIDS Relief
    (PEPFAR) have been effective in implementing the program and successful in working with
    host governments in prevention, treatment, and care.

•   U.S. embassies in Central Asia need more guidance and direction from the Office of the
    Global AIDS Coordinator. Problems with coordination, communication, and organization
    indicate a full review of the program is needed.

•   Embassies’ responses to an OIG questionnaire indicated that most of the low-investment
    programs are working well in countries where the host government shares a common strategy
    with the United States for combating the HIV/AIDS epidemic.

•   There is no assurance that host countries can or will maintain and sustain these activities if
    funding is reduced or discontinued. Further, transition timelines are unrealistic, especially in
    Africa.



The inspection took place in Washington, DC, between May 11 and June 30, 2011. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED




Context
        In 2003, at the urging of then-President George W. Bush, Congress passed the United
States Leadership against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (P.L. 108-25). It
called for a comprehensive, integrated 5-year strategy to combat global HIV/AIDS and
authorized $15 billion for 5 years to fund these efforts. The act required coordination among the
implementing executive branch departments or agencies: the U.S. Department of State, the U.S.
Agency for International Development (USAID), the Centers for Disease Control and Prevention
(CDC), the Departments of Defense, Labor, and Commerce, and the Peace Corps.

        In 2008, Congress expanded this effort. The Tom Lantos and Henry J. Hyde United
States Global Leadership Against HIV/AIDS, Tuberculosis and Malaria Reauthorization Act of
2008 (H.R. 5501) authorized a budget of up to $48 billion to cover FY 2009 through FY 2013. 1
This bill authorized the use of compacts or framework agreements between the United States and
countries already receiving U.S. funds to fight HIV/AIDS and emphasized strategies to promote
the sustainability of health care systems in affected countries.

        In 2010, PEPFAR announced new results from its efforts to support countries in
providing HIV prevention, treatment, and care to their people. The results showed that the
United States is directly supporting antiretroviral treatment for more than 3.2 million men,
women, and children worldwide, up from less than 2.5 million in 2009. It also is supporting
antiretroviral prophylaxis to prevent mother-to-child HIV transmission for more than 600,000
HIV positive pregnant women, allowing more than 114,000 infants to be born HIV free.

        Combating HIV/AIDS is a shared global responsibility. The Global Fund to Fight AIDS,
Tuberculosis and Malaria (Global Fund) supports programs the United States and other donors
fund. Some treatment programs receive support through PEPFAR bilateral programs, the Global
Fund, or both. Since 2003, the U.S. Government has contributed almost $1 billion of PEPFAR’s
total annual budget to the Global Fund. The United States is the single largest contributor to the
Global Fund; U.S. contributions represent approximately 30 percent of annual funding. Between
2002 and 2010, the United States contributed $10.5 billion to the Global Fund. In 2010, the U.S.
Government pledged $4 billion in contributions for the period 2011-13.

        The PEPFAR country programs fall into three categories. Countries with large programs
and funding over $5 million must prepare country operational plans. The Office of the U.S.
Global AIDS Coordinator (S/GAC) approves these work plans. These large programs are subject
to extensive data collection and S/GAC’s reporting requirements.




1
    Section 101 of the Lantos-Hyde Act (Reauthorization Act of 2008, H.R. 5501), July 30, 2008, requires the
    Inspectors General of the Department of Health and Human Services, USAID, and the Department of State to
    develop coordinated annual plans for PEPFAR oversight for FY 2009 through FY 2013.


                                                2
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



        In the next group, which is called Foreign Assistance Operational Plan (F OP) countries,
each country receives less than $5 million in assistance. These countries typically had a
preexisting HIV/AIDS program funded by the Global Fund, other donors, the host country, or
another U.S. Government agency. Other agencies must report on their PEPFAR activities, along
with all other foreign assistance grants their countries receive, to the implementing agency’s
headquarters and to the Department’s Director of Foreign Assistance.

       The third group of PEPFAR countries is comprised of regional groups that develop
Regional Operational Plans (R OP). Each of the embassies in these regions also receives less
than $5 million. The total funding for the F OP and R OP countries is about $55 million. The
regional groups funded specifically by the Department’s Global Health and Child Support
Account are the Caribbean region, Central America region, and Central Asia region. The other
regions—Africa, which includes East, Southern and West Africa; Eurasia, Latin America and
the Caribbean; and Asia and the Middle East—are funded directly through USAID, and
USAID manages these programs. All of these groups report on their activities to the
Department’s Director of Foreign Assistance, S/GAC, and the implementing agencies.

       The regional programs have designated regional coordinators and coordinating
embassies. In the case of the Central American and Caribbean regions, the countries in the region
have signed a regional partnership framework with the embassies in the region.

       S/GAC is responsible for the coordination and oversight of all of these programs and
compiles data from the F OPs and R OPs with the larger countries. Given the limited investment
of PEPFAR funds in these F OP and R OP countries however, in-country oversight has been
primarily carried out by the agency receiving the funding, as required in memoranda of
agreement. S/GAC does not have PEPFAR coordinators in any country that receive less than $5
million.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Management and Leadership
        According to S/GAC and the OIG team’s analysis of responses to an OIG questionnaire,
it appears that PEPFAR programs, funded at less than $5 million, are for the most part well
managed. Leadership for countries with small PEPFAR funds falls to the ambassador and deputy
chief of mission (DCM). In some cases, a representative of one of the implementing agencies or
an embassy political or economic officer has responsibility for managing these programs. Many
responses to the OIG questionnaire indicated that PEPFAR has the potential to bring diplomatic
benefits; but, unless the public affairs section works to identify the PEPFAR contribution, it is
likely that recipient countries will view it as part of other U.S. foreign assistance. Where there
are national AIDS days, ambassadorial presentations with ministers of health, and other publicity
and acknowledgement activities, the program tends to be better recognized. S/GAC believes that
the programs are more successful when the contribution and impact of PEPFAR is
acknowledged.

       Since 2003, funding for PEPFAR has been provided directly to S/GAC and distributed
through memoranda of agreement with the implementing agencies, which are CDC, USAID,
Department of Defense, and Peace Corps. These funds are allocated on the basis of budgets
developed with each agency.

        Following the requirements stated in the memoranda of agreement, those agencies
receive the funding through transfers that include U.S. Department of Treasury nonexpendable
transfers (SF-1151). They are responsible for implementing the program, for obligations, outlays,
transfers of funds, and for auditing the funds as specified in the memoranda. These agencies
often also receive funding through direct appropriations. S/GAC is charged with providing
continuing guidance and direction for all PEPFAR funds. It is important to note that when funds
are transferred to the other agencies, the Department is no longer accountable for the expenditure
of those funds.

       S/GAC mandates periodic reporting regarding performance and outcomes. From the start,
the goal for PEPFAR was to provide prevention, treatment, and care for those affected with
HIV/AIDS and for the most at-risk populations and youth. A secondary goal is to leverage other
donors’ funding to augment PEPFAR funding, for example, the Global Fund.




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




Regional Operational Programs
       Some smaller programs get direct bilateral funding as in the case of Embassy Brasilia,
which supports programs in Angola and Mozambique, while others get funding through a
regional center such as Embassy San Salvador. Regional programs are managed from a
designated embassy or constituent post. Regional programs are often led by coordinators who are
members of CDC or USAID staff. In some instances, Washington- or Atlanta-based staff
manages regional programs. According to the embassies’ responses to OIG's questionnaire and
S/GAC’s information, these programs tend to be successful and meet PEPFAR goals. In
countries where the host government has not made a serious commitment to supporting
HIV/AIDS prevention and treatment goals, these programs may not be sustainable should U.S.
funding be reduced or ended.

        Differences in implementing programs exist between the primary implementing agencies.
For example, USAID tends to use contractors to run its programs. This allows USAID to ramp
up its professional staff quickly with personnel who deal with community organizations and civil
society. The CDC staff, usually direct hire personnel, is often embedded in hospitals and with
ministries of health, and in laboratories. Its professional staff performs a technical assistance
role, funding the establishment of laboratories and working on epidemiology, trends, and risk
factors. Peace Corps volunteers teach prevention and life style choices. The Department of
Defense focuses on training foreign military personnel about prevention.

        Proposed allocations of funding for bilateral and regional PEPFAR programs are
developed through an iterative process that considers multiple variables. These include historic
funding, partner government contributions, and Global Fund contributions. The process also
considers the rates of coverage of key HIV medical interventions, strategic opportunities, the
interests of the U.S. Government, and the scale and trajectory of the national or regional
epidemic. All these factors determine whether a country falls into one of three broad investment
bands: transition (reduced funding over time), maintenance, or scale-up/intensive intervention.

    Officials from the other agencies and responses to the OIG questionnaire indicate that the
PEPFAR program has had positive impacts on bilateral relationships. For example, CDC
officials said that country health ministers work collegially with CDC and often seek CDC help
and guidance in dealing with difficult medical issues, having gained confidence from working
with CDC on HIV/AIDS and other diseases. Ambassadors and DCMs report that they have
greater access to host government officials as well.

Central Asia Region




Source: THE U.S. PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) FISCAL YEAR 2010: PEPFAR OPERATIONAL PLAN
April 2011

                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        Central Asian embassies reported significant difficulties with the regional program that
includes Kazakhstan, the Kyrgyz Republic, Tajikistan, Turkmenistan, and Uzbekistan. The
program has been in existence for nearly 2 years. It is struggling to organize and establish itself.
The processes for reporting and managing regional coordination from Almaty, the designated
regional coordinating office, are unclear. S/GAC has not developed guidance that communicates
clearly to the embassies in the region, the implementing agencies, and to ambassadors and DCMs
what the roles and responsibilities of ambassadors and DCMs are for PEPFAR programs.
Funding decisions, first made in S/GAC and refined in the region, are reported to be slow and,
for some, frustrating and not transparent. According to the responses to the OIG questionnaire,
there is no coordination among the participants in this regional program.

        Concerns about HIV in Central Asia prompted PEPFAR to fund the regional program,
although the prevalence of HIV in that region is low. The program focuses on intravenous drug
users and the recognition that these countries are a gateway to drug distribution and sex
trafficking. Responses to the OIG questionnaire indicated that there are questions about whether
S/GAC’s objectives have been aligned with the regional bureau and whether they have been
integrated into foreign policy issues for Central Asia. The responses indicate that the low level of
funding may not be adequate and the risk of lessened funding would likely end the programs.
The embassies report that these countries would not sustain these programs.

Recommendation 1: The Office of the U.S. Global AIDS Coordinator should conduct an
analysis to determine the costs and benefits of funding the President’s Emergency Plan for AIDS
Relief in Central Asia to determine whether it should remain a regional program with five or
fewer participants, become five or fewer bilateral programs, or be discontinued. (Action:
S/GAC)

        While S/GAC did not disagree with the recommendation, its response to a draft of this
report indicated that it did not wish to discontinue the program or to create five bilateral
programs. Further responses to this recommendation will incorporate costs and benefits of each
of the options reviewed by S/GAC.

        One embassy said that when the interagency team asked S/GAC staff to communicate
directly with the chiefs of mission to help advance program objectives, it received no assistance.
A better definition of regional goals and reporting requirements for PEPFAR programs spread
across thousands of miles is needed. According to one regional DCM, there is no clear structure
for leadership or accountability. That embassy is the regional lead, yet it is not clear what S/GAC
expects vis-à-vis program oversight and management or coordination with the other embassies’
executive offices. In addition, it was not clear how each of the other embassies will ensure
PEPFAR programs in their countries will work with or build on existing efforts other donors
fund. A cable providing guidance to the five chiefs of mission is needed and, reportedly, in draft
in S/GAC.

       Informal Recommendation 1: The Office of the U.S. Global AIDS Coordinator
       should develop specific guidance and direction for ambassadors and deputy chiefs


                                           6
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



             of mission in the Central Asia region detailing goals, responsibilities, and
             reporting requirements.

       The implementing agencies in the region have different strengths and experiences.
Embassies in the region report that, instead of working together to make the program a success,
they have been undermining each other.

        S/GAC knows about the problems in this region and told the OIG team that the regional
embassies do not coordinate well and that they recognize that the small sums of money the regional
program provides do not make it a priority for the executive offices. The implementing agencies are
also not working well together. S/GAC sponsored an off-site retreat where the participants practiced
team building and learned how to cooperate and communicate more effectively.

Central America Region




Source: THE U.S. PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) FISCAL YEAR 2010: PEPFAR OPERATIONAL PLAN
April 2011


        PEPFAR programs have been in Central America and the Caribbean for some time. In
2010, the Central America regional PEPFAR program signed a partnership framework with
Belize, Costa Rica, El Salvador, Guatemala, Honduras, Nicaragua, and Panama. The framework
focuses on reducing HIV transmission; building capacity within national and regional health
systems to deliver services; building capacity at the country level to monitor and use strategic
information to support an evidence-based and sustainable program; and improving the policy
environment for the provision of HIV/AIDS services. HIV/AIDS is prevalent among the most at-
risk populations. Continued discrimination against these populations represents a major barrier to
addressing the epidemic. However, building upon this reported level of progress so far and with the
host governments’ active participation, the small programs have been successful in establishing
treatment and prevention activities. The ambassadors and the DCMs are involved and the
implementing agencies work collaboratively with the host governments and other donors. They
research data and monitor their programs’ effectiveness.

Caribbean Region

       Global Health and Child Survival funding in this regional program includes State, USAID,
and CDC funds. These sums are allocated to Antigua and Barbuda, Bahamas, Barbados, Belize,
Dominica, Grenada, St. Kitts and Nevis, St. Lucia, St. Vincent, Suriname, and Trinidad and Tobago.
Funding for Jamaica is the minimum within a regional program.

        Reponses to the OIG questionnaire from this region were mostly positive. Ambassadors
and DCMs are engaged, host countries participate, and coordinators are successful. Regional
participants’ responses gave credit to Embassy Barbados for providing technical support and
                                                7
                                   SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



being easy to reach if questions arise. In contrast to activities in the Central Asia region, the
Caribbean regional embassies participate in the planning and country work plan process
throughout the programming cycle and are working in line with regional program goals.

         The ambassadors in the region also participate in annual chiefs of mission meetings and
are members of the regional program steering committee. This ensures that their guidance is
included at various times in the process. The coordinating regional embassy provides program
communications and seeks the proper balance of providing program information on all PEPFAR
activities in the region and in the embassy country programs. This is done through biweekly calls
for the interagency team. These embassies also have developed quarterly work plans, conference
calls and/or in-country meetings, R OP planning meetings, and annual meetings.

         PEPFAR budget development is done during the development of the R OP. The planning
considers the epidemiology and drivers of the epidemic, country size and population, country
program priorities and needs, and what other donors are funding in the region. The interagency
work group teams meet to determine program priorities after a series of country consultations is
completed with stakeholders. Budget levels are determined based on the fiscal year budget data
S/GAC provides and agreed-upon percentages by goal area. The agencies then determine
activities and implementing agency by goal area to be submitted into the annual R OP.

       In the Bahamas, the Ambassador and the Bahamian Minister of Health held a public
meeting to sign the PEPFAR agreement. This event received local media coverage. Further, the
embassy has partnered with the media to promote the Ambassador’s grant fund. The Ambassador
wrote an op-ed piece for the two major newspapers for World AIDS Day and spoke at the
HIV/AIDS prevention summit held in the Bahamas.




                                            8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Directly Funded Programs
       There are a number of low investment countries that receive PEPFAR funds directly from
implementing agencies and do not participate in regional collectives. These countries often had
preexisting HIV/AIDS programs that USAID or CDC or both were already implementing.
According to responses to the OIG questionnaire, PEPFAR is working well in these countries.
Each embassy’s bilateral PEPFAR program is based on country-specific circumstances. For
instance, in more developed countries, including Brazil and Peru, the focus is for CDC to provide
technical assistance while the host country provides for program implementation. Where host
country capacity is more limited, including Senegal, Sierra Leone, and other African countries,
PEPFAR programs are more operational. These programs, similar to those in regional countries,
aim primarily at the most at-risk populations and groups the host country marginalizes.

        PEPFAR is included in the embassies’ Mission Strategic and Resource Plans either as an
independent goal or a component of a broader goal, usually health. Ambassadors and DCMs are
involved commensurate with the priority placed on PEPFAR within strategic goals and relative
to the size of other U.S. Government programs in the country. Responses to the OIG
questionnaire indicate that the executive office responds to requests for their participation, as
needed, in internal coordination and decision-making and in public diplomacy events.

        These embassies reported success in leveraging modest PEPFAR programs to improve
bilateral relations, facilitate access to high level officials in the host country, and to open a
channel to other stakeholders and donors. Many embassies report that transition goals to move
from U.S. assistance to having host countries sustain these programs are unrealistic. For some
countries, embassies maintain that host country infrastructure and health systems are so
underdeveloped that there is little chance of sustainability over the next several years. Even in
countries where the host government has taken a leadership role and operates mature programs,
embassy officials predict that gains cannot be maintained without some continued PEPFAR
funding.

        There are no full-time coordinators for these small PEPFAR programs. Day-to-day
management varies depending on the number of implementing agencies and the funding each
agency receives. At embassies where one agency has most of the funding, that agency has the
lead. In Tbilisi, Georgia, for example, USAID receives almost all PEPFAR funds, and USAID’s
senior medical and infectious disease officer manages program implementation, monitoring, and
evaluation. The Peace Corps director of programming and training manages about $14,000. In
Brazil, USAID and CDC, with nearly equal funding and staffing, coordinate in managing
programs. In most cases, in the bilaterally funded programs, interagency coordination, including
budget development, is good and there are few interagency tensions. This contrasts strikingly to
what has happened in the Central Asia region.

       Although ambassadors do not provide the same degree of oversight as they do in
countries with large programs, they are involved. Often, the DCM has oversight responsibility.
At Embassy Tbilisi, the DCM chairs an interagency committee to coordinate all foreign

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



assistance programs; and at Embassy Bamako, the DCM chairs a monthly PEPFAR country team
meeting that includes all agencies’ representatives.

        S/GAC believes that, even with modest funding, PEPFAR is a potent political tool.
Responses to the OIG questionnaire indicate that the embassies work to apply and maximize
PEPFAR’s multiplier effect to other aspects of bilateral and multilateral relationships. In some
countries, for instance, even where Global Fund contributions dwarf PEPFAR’s, the PEPFAR
presence allows the embassy to participate in country coordinating committees, influence host
country grants requests, work with other donors to avoid duplication, fill programming gaps, and
identify synergies.

        Most of the embassies’ responses to a question about sustainability indicated that
transition timelines are unrealistic, especially those in Africa. Some embassies are concerned that
Global Fund resources will decrease with a corollary effect on sustainability. One response stated
that overreliance on foreign assistance may impede progress toward host country ownership.

        Some embassies want more input to PEPFAR decisions that S/GAC and the
implementing agencies make. Others believe their successes in maximizing PEPFAR’s impact
with low funding could provide a template for best practices that better funded programs could
duplicate. For a relatively small investment, these embassies reported that they have begun to
develop models for foreign assistance and said their models, approaches, and strategies could be
tools to produce efficiencies larger PEPFAR programs.




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Training
         Senior staff representing the Department of Health and Human Services, CDC, USAID,
and Peace Corps told the OIG team that ambassadors’ and DCMs’ involvement in PEPFAR
activities has been a key to success. Without it, programs may founder. Ambassadors facilitate
access for these agencies to high level host government ministries and senior intergovernmental
working groups. These officials stated that embassies’ support, including the executive office
and the International Cooperative Administrative Support Services staff, has been uniformly
good. However, rotations among Foreign Service officers, particularly in the general services
office, have led to occasional misunderstandings and difficulty with processing requirements.
Local staff does not rotate and could provide needed help if embassy administrative processes
were better understood.

        In responses to OIG’s questionnaire, USAID and CDC coordinators and staff echoed the
view that embassy support was generally good and that most ambassadors and DCMs were
actively and positively engaged in the PEPFAR program. For the most part, where embassies
have a health issue in the Mission Strategic and Resource Plan, PEPFAR is included and getting
attention from the public diplomacy section.

       Where PEPFAR coordinators have been hired, coordination and collaboration have
improved. However, in the Central Asia region, even the recent appointment of a coordinator has
not remedied confusion regarding activities and responsibilities. Ambassadors, DCMs, and
management officers need information about their roles and responsibilities for PEPFAR, during
consultations or once they arrive at the embassy.

       The Foreign Service Institute’s School of Professional and Area Studies is developing, in
coordination with S/GAC, a distance learning module that introduces PEPFAR and plans to
develop a module to inform ambassadors and DCMs about the program and their roles.

          State cable 02742, dated June 20, 2011, states the requirement that all personnel
assigned overseas under chief of mission authority take the Mandatory Distance Learning Course
PN 113, Introduction to Working in an Embassy. This course is mandatory for U.S. personnel
who will be on temporary duty overseas for more than 30 days. When this requirement is
followed, other agencies’ staffs are more familiar with embassy operations and how to get needs
met in all of the support areas.




                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Impact of the President’s Emergency Plan for AIDS Relief
        Responses to the OIG questionnaire indicate that F OP programs are functioning well and
embassies have developed positive working relationships with their host countries and other in-
country donors. They believe they have leveraged PEPFAR contributions to enhance the host
government’s ability to collect and analyze data, improve their country plans, and to maximize
the effectiveness of the donor communities’ activities. They report real value in their work with
the Global Fund, helping to shape and manage the activities. The ambassadors and DCMs appear
to be playing a leadership role with the host governments and donors.

        For a relatively small investment, these embassies report that they have begun to develop
models for foreign assistance that produce efficiencies for PEPFAR activities. S/GAC collects
performance measures to determine the program effectiveness. Consequently, some programs are
in transition to less funding and some will not be funded in the future.

Central America and Caribbean Region

        The mature regional programs in Central America and the Caribbean have frameworks
that outline a 5-year strategy toward combating HIV/AIDS. These strategies are linked to the
host countries’ national strategies and have the accord of donor communities and
nongovernmental organizations, resulting in a positive engagement. The OIG team agrees that
the embassies are playing a key role in supporting the Global Fund, providing the countries and
the donor communities with technical and administrative assistance to improve prevention,
treatment, care, management, and oversight.

Central Asia Region

        The Central Asia regional program is relatively new and suffers from the lack of
collaboration among the governments in the region, lack of critical engagement by ambassadors
and DCMs, and competition rather than collaboration among the implementing agencies at the
embassies. For these regional players, there is not a clear strategy for developing regional goals.
They need leadership and guidance from S/GAC. In the absence of such guidance, these Central
Asia regional embassies are pursuing their own bilateral programs. Some of the host
governments show little or no interest in investing in HIV/AIDS programs; hence, there is little
possibility for an effective, sustainable program or supporting a transition strategy. See
Recommendation 1 in the Central Asia section of this report.




                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Directly Funded Programs

        F OP programs are providing countries with value relative to the small investments. They
are essentially well managed, in part, because, in those countries with bilateral funding, the
ambassadors are more directly involved in day-to-day oversight. The regional programs, where
successful, demonstrate that a single medical professional located in a region where it is easy to
travel among regional embassies is a cost-effective way to manage programs. This may be a
useful methodology to consider when larger programs transition but still require technical
assistance.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




Formal Recommendation
Recommendation 1: The Office of the U.S. Global AIDS Coordinator should conduct an
analysis to determine the costs and benefits of funding the President’s Emergency Plan for AIDS
Relief in Central Asia to determine whether it should remain a regional program with five or
fewer participants, become five or fewer bilateral programs, or be discontinued. (Action:
S/GAC)




                                        14
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




Informal Recommendation
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Office of the U.S. Global AIDS Coordinator should develop
specific guidance and direction for ambassadors and deputy chiefs of mission in the Central Asia
region detailing goals, responsibilities, and reporting requirements.




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




Abbreviations
CDC             Centers for Disease Control and Prevention
DCM             Deputy chief of mission
Department      Department of State
F OP            Foreign Assistance Operational Plan
Global Fund     Fund to Fight AIDS, Tuberculosis and Malaria
OIG             Office of Inspector General
PEPFAR          President's Emergency Plan for AIDS Relief
R OP            Regional Operational Plan
S/GAC           Office of the U.S. Global AIDS Coordinator
USAID           U.S. Agency for International Development




                            16
                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




APPENDIX A
                      MEMORANDUM OF AGREEMENT
                               BETWEEN THE
                          DEPARTMENT OF STATE
           OFFICE OF THE U.S. GLOBAL AIDES COORDINATOR (OGAC)
                                 AND THE
                               AGENCY NAME
               TO ALLOCATE FUNDS APPROPRIATED IN FY 20XX

I.             AUTHORITY

        Pursuant to Section 632(a) of the Foreign Assistance Act of 1961, as amended ("FAA"),
the Department of State, Office of the United States (U.S.) Global AIDS Coordinator ("OGAC")
hereby agree to allocate to the Agency an amount of XXX in funds appropriated in the
Department of State, Foreign Operations, and Related Programs Appropriations Act date (PL
that applies) ("SFOAA") under the heading "Global Health and Child Survival ("GHCS"), for the
purpose of and subject to the terms and conditions set forth below in accordance with the
authority granted in the FAA, the SFOAA and the United States Leadership Against HIV/AIDS,
Tuberculosis and Malaria Act, 2003, (P.L. 108-25) ("U.S. Leadership Act"), as amended by the
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis and Malaria Reauthorization Act of 2008 (P.L. 110-293).

II.    PURPOSE

        Agency will use funds allocated under this Memorandum of agreement ("MOA") to
support efforts to meet the HIV/AIDS prevention, care, and treatment goals set forth in the U.S.
Leadership Act and the President's Emergency Plan for AIDS relief ("PEPFAR"). In particular,
the agency will use funds allocated pursuant to this MOA to implement programs as noted in
Annex 1, and incorporated by reference herein, and for such related purposes as OGAC may
direct in writing. In so doing, agency will comply with revisions to those allocations, developed
in coordination with agency, and which revisions will be incorporated into this MOA.

III.   TERMS AND CONDITIONS

A.     For country activities, the agency will work under the direction of the Ambassador and
the U.S. Government coordinating committee in each of the countries to carry out its role within
the approved Country Operational Plan. For central programs, headquarters technical oversight
and management, and technical leadership and support, the agency and OGAC will mutually
agree on how to proceed, consistent with the U.S. Leadership Act.

B.     The agency will administer the funds allocated under this MOA in accordance with all
applicable law and policy. To this end, the agency will secure appropriate commitments from
grantees and contractors to ensure that conditions required by U.S. law are given effect,
including the condition that commodities acquired with U.S. assistance not be subject to value
                                         17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



added taxes or customs duties or any such taxes if not reimbursed, and the conditions relating to
prostitution and sex trafficking contained Section 301 of the U.S. Leadership Act.

IV.    REPORTING

A.     Agency will provide or contribute to the following reports:

       1.      Agency contributions to the Semi-Annual Program Results (SAPR) and Annual
                 Program Results (APR) submissions of the U.S. Government PEPFAR
                 coordinating committee in designated countries.
       2.      Semi-annual progress reports according to a template provided by OGAC.
                 Reports are due on November 15 and May 15 each year, for the periods ending
                 September 30 and March 31, respectively.
       3.      Quarterly reports of PEPFAR obligations, outlays, and transfers (including all
                 PEPFAR funds) made by agency, in accordance with guidance provided
                 quarterly by OGAC. Financial data reported in these reports will be consistent
                 with the quarterly Standard Form 133 (SF-133) reports submitted by agency to
                 the U.S. Treasury. These reports are due forty-five (45) days after the end of
                 each quarter.
       4.      The Conference Report language for the Department of State, Foreign Operations
                 and Related Programs (for year and law number), requires that third quarter
                 financial data reports include a brief explanation of the factors contributing to
                 countries being below target and obligation and outlay rates. For countries
                 where this applies, agencies and bureaus will need to provide brief narratives
                 explaining why obligations and outlay targets have not been reached. Target
                 values are included in the Quarterly Obligation and Outlay report guidance
                 sent to agency financial contacts. OGAC will upload the format for the
                 narratives along with the third quarter templates.
       5.      On an annual basis, a report providing outlay data in accordance provided by
                 OGAC.
       6.      A quarterly Report on Budget Execution of GHCS Allocations (SF-133) directly
                 to the U.S. Treasury, in accordance with the Office of Management and Budget
                 Circular A-11, and a fiscal year-end certification (FMS Form 2108).
                 Headquarters will provide preliminary trial balances for the GHCS Allocation
                 account to OGAC, Office of Budget, SA-29 2nd Floor, 2201 C St. N.W.
                 Washington, DC 20520, within fifteen (15) days of the end of each quarter.
                 Additionally, copies of the agency GHCS FMS for 2108s will be provided to
                 OGAC within thirty (30) days after the end of the fiscal year.


B.     The agency will keep full and complete records and will exercise due diligence in the use
of funds provided under this MOA, in accordance with generally accepted U.S. Government
accounting principles. The agency will monitor and report on programs, projects, and activities
supported by this MOA to ensure compliance with funding categories designated in the
appropriation. The agency will cooperate in the conduct of financial and administrative reviews,

                                         18
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



audit of financial and other record, including all GAO audits and inspection of administrative
procedures, including but not limited to authorization of travel and related expenditures.

C.      Pursuant to section 7009(e) of the SFOAA, the Office of the Inspector General for the
agency shall perform periodic program and financial audits of the use of funds allocated under
this MOA. Upon consultation with and concurrence by OGAC, the agency may use funds
allocated hereunder for the cost of such audits, which costs shall be identified in the
Headquarters Operational Plan.

D.       The agency will require all contractors and grantees that sub-contract (or sub-grant) to
local organizations include specified indicators of sustainable institutional capacity as part of the
yearly work plans and program performance reports. Specified indicators will be provided as part
of " The President's Emergency Plan for AIDS Relief: Next Generation Indicators Reference
Guide." Contractors and grantees should provide narrative information on sustainable
institutional capacity building covering appropriate items in Annex 3 as part of periodic
performance reports.

V.     AVAILABILITY

A.       All funds allocated under this MOA shall be obligated by date. Funds may be obligated
after this date, only with the written authorization of OGAC. The programming of previously
unallocated prior-and current year technical leadership and support funding will be notified to
and approved by OGAC in writing before obligation.

B.     The execution of the MOA does not, in itself, constitute an obligation of funds for either
OGAC or the agency. The agency will receive the allocation as Treasury Department NO-
expenditure Transfer Authorization (Standard Form 1151) Agency shall ensure funds transferred
under this MOA are not comingled with funds agency receives from other sources.

VI.    RESOLUTION OF DISPUTES

       Disputes arising under this MOA shall be resolved informally by authorized
representatives of the parties, taking into account the Treasury Financial Manual, Vol. I, Bulletin
No. 2011-04.

VII.   PERIOD OF AGREEMENT

       The effective date of this MOA will be the date of the last signature on the MOA. This
MOA shall remain in effected until funds are expended, subject to statutory limits, and may be
modified or canceled upon mutual consent of both parties in writing.


Source: modification of signed MOA to reflect usual language.



                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




APPENDIX B
Excerpt from Cable 11 State 56126

1. This is an action cable. Action items are in paragraph 8.

2. The Department’s Office of Inspector General (OIG) is conducting its third review of the
President’s Emergency Plan for AIDS Relief (PEPFAR) at U.S. diplomatic missions. All
PEPFAR-related OIGs oversight of PEPFAR programs is Congressionally mandated under
PEPFAR’s 2003 legislation and the 2008 reauthorization. This review falls within an interagency
oversight program coordinated among the Inspectors General of USAID, HHS and the
Department.

3. OIG’s 2009 and 2010 reviews focused on PEPFAR Country Operational Plan (COP)
countries. This review is focused on countries designated as Foreign Assistance Operational Plan
countries. The review will evaluate PEPFAR program oversight, management, and coordination
and transition strategies and challenges to achieving host country sustainability.

4. This Washington-based review will be conducted between June 1, 2011 and June 30, 2011.
The review will include interviews and meetings with officials from S/GAC, other Department
entities, and implementing agencies. This cable contains a questionnaire (Paragraph 8).
Addressee posts are requested to submit replies to this questionnaire by June 15, 2011.

5. Your responses to the questionnaire will provide valuable information from posts' perspective.
OIG encourages you to share this questionnaire with members of your country team. All
comments and observations, including critical or positive remarks, are welcome. Responses will
be held in confidence. Posts are requested to provide the name and contact information for those
employees responsible for completing the questionnaire. The OIG may conduct selected follow-
up teleconferences, if necessary.

6. Please send your responses via email on the unclassified system. If any remarks need to be
classified, please send via cable, OIG Channel.

7. OIG thanks posts for their assistance during this busy season.

8. Questionnaire:
A. At your post who is responsible for day to day oversight of PEPFAR program
implementation, monitoring and evaluation? Who is responsible for managing PEPFAR funds?
Does post have sufficient resources and expertise to support PEPFAR programs?

B. Please describe the PEPFAR budget development process at your post. If there is more than
one implementing agency at post, or if your post is a member of a regional program, how are the
proposed allocations for each agency determined?


                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



C. To what degree, and in what ways, is post using PEPFAR to leverage other donor (e.g.,
Global Fund, non-governmental organizations, Foundations) contributions and participation in
HIV/AIDS assistance programs? Have these efforts been successful?

D. What does PEPFAR provide to the host country that is unique and different from assistance
provided by other donors? Could program goals be met by multilateral and other organizations?
Explain.

E. Is there appropriate visibility for PEPFAR programs? How is PEPFAR integrated into the
posts' public diplomacy strategy?

F. If current programs cannot be expanded, is the current funding level sufficient to achieve a
successful transition to host country sustainability and partnership framework goals?

G. Please comment on S/GAC’s and agency headquarters guidance and responsiveness to post.

H. Please include any additional comments you may have on improving PEPFAR’s effectiveness
and efficiency.

Results: 26 of 27 embassies responded to the questionnaire, a 96 percent return rate. DCMs
forwarded most of the results or implementing agencies sent them.




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED




APPENDIX C
Survey questions for S/GAC

F OP:
   •    What are the criteria for providing funding to these countries?
   •    How is the money allocated and who manages it at post?
   •    What reporting is required? To whom?
   •    Are the programs aligned with the PEPFAR goals and strategies?
   •    How do embassies determine how much funding to request; how do embassies determine
        allocations for the funding requests.
   •    Who at an embassy requests the funding; how is the program implemented; what is the
        oversight?
R OP with State GHCS funding:
   • What is the basis for allocating State GHCS money to regional programs?
   • Is the funding allocated in line with strategic goals for each country, embassy, and
      region?
   • Does the funding meet overall PEPFAR goals?
   • Are there any embassies that receive bilateral and regional funding? What determines
      total funding? Does S/GAC consider other donors contributions when making funding
      decisions?
   • Does State provide funding directly to the regional organizations? Does State assess the
      money the regional entity gets directly from USAID when deciding on the amount of
      funding?
   • Who manages small programs? Are there coordinators? At the region or at the embassy?
      Are they sufficiently trained? Where and by whom?
   • Who awards and manages the grants and other agreements/?
   • Is the use of the State funding specifically designated a program or is the decision left to
      the regional organization?
   • What type of reporting is required for countries receiving regional funding that State
      provides?
   • What is the future relationship expected to be with GHI?
S/GAC activities
   • How does S/GAC determine which countries should receive low investment PEPFAR
     funds?
   • What is S/GAC's role in the F operational plan (OP) country process?
   • Operational plan assistance reports, required for F, are completed at a high level of detail.
     Are these reports sufficiently detailed and specific enough for reporting information and
     data to meet S/GAC requirements?
   • At F OP posts, who is responsible for oversight of PEPFAR programs and funding?
   • What is the global health and child survival (GHCS)-State account? What are the funds
     used for and how does it differ from the GHCS-USAID and GAP accounts?
                                         22
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED



•   Of the 25 F OP posts, in addition to USAID or HHS funding, 16 posts receive GHCS-
    State funds. How are GHCS-State funds allocated to embassies? Who manages these
    funds and programs? Four posts receive GHCS funds only.
•   Of the 25 F OP posts, 4 receive GHCS-State funds only. How is this funding determined;
    what is it used for and who manages it?




                                     23
                         SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED




APPENDIX D
                            Foreign Assistance Operation Plan Countries
                          GHCS - State          GHCS - USAID                HHS               FY 2011 Base
                                                                                                Funding
Africa
              Djibouti            1,800,000                                                           1,800,000
               Liberia            2,800,000              2,700,000                                    5,500,000
          Madagascar                500,000              1,500,000                                    2,000,000
                 Mali             1,500,000              3,000,000               250,000              4,750,000
              Senegal             1,535,000              3,000,000                50,000              4,585,000
         Sierra Leone               500,000                                                             500,000
East Asia Pacific
  Papua New Guinea                2,500,000              2,500,000                                    5,000,000
Europe and Eurasia
              Georgia               850,000                                                             850,000
Western
Hemisphere
                Belize               20,000                                                              20,000
                Brazil            1,300,000                                    1,000,000              2,300,000
          El Salvador                20,000              1,090,000                                    1,110,000
            Honduras              1,000,000              5,000,000                                    6,000,000
           Nicaragua                897,000              1,000,000                                    1,897,000
                 Peru                50,000              1,240,000                                    1,290,000
Source: S/GAC
                                 Regional Operational Plan Countries
                           GHCS - State         GHCS - USAID                HHS               FY 2011 Base
                                                                                                Funding
Central Asia Region                 14,254,000              1,000,000             560,000          15,814,000
           Kazakhstan                  600,000                200,000                                 800,000
              Kyrgyz                   475,000                200,000                                 675,000
            Tajikistan                 524,000                200,000                                 724,000
         Turkmenistan                    75,000               200,000                                 275,000
           Uzbekistan                  590,000                200,000                                 790,000
Western
Hemisphere
   Caribbean Region*                14,850,000              6,960,000           1,500,000             23,310,000
   Central America**                 6,171,000              5,391,000           1,025,000             12587,000
* Caribbean Region includes: Antigua and Barbuda, Bahamas, Barbados, Belize, Dominica, Grenada, Jamaica, St.
Kitts and Nevis, St. Lucia, St. Vincent, Suriname, Trinidad and Tobago
**Central America region includes: Belize, Costa Rica, El Salvador, Guatemala, Honduras, Nicaragua, and Panama
Source: S/GAC




                                             24
                                 SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.



           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:


             202-647-3320
             800-409-9926

         oighotline@state.gov

             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219


   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
